/

Marilynn M. McRae, Pro-Se
4233 Birmingham Way
Raleigh, NC 27604
mmmcrae l@hotmail.com
919-225-8290

PROOF OF SERVICE
I, Marilynn M. McRae, do swear or declare that on this date, July 12, 2021
as required by the Supreme Court Rule 29 I have served the enclosed MOTION
FOR A PETITION REHEARING ON THE WRIT OF CERTIORARI on the counsel
for the respondent, Sheriff Donnie Harrison, by depositing an envelope containing
the above documents in the United Stated mail properly addressed to each of them
and with first class postage prepaid, or by delivery to a third party commercial
carrier for delivery within 3 calendar days.
The name of those served are as follows:
Jennifer M. Jones, Roger A. Askew, John A. Maxfield, Wake County Attorney
Office, Post Office Box 550, Raleigh, NC 27602. Hal F. Askins, 330 Salisbury St.,
Raleigh, NC 27602, and Brian Kettmer, 505 East Blvd., Charlotte, NC 28203.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 12, 2021

Mafdynn M. McRae

